         Office of Inspector General




September 22, 2006

WALTER O’TORMEY
VICE PRESIDENT ENGINEERING

SUBJECT: Technology Acquisition Management Process Guide – Phases 3 and 4,
         Production, Deployment, and Maintenance
         (Product Number DA-WP-06-002)

This letter provides the results of our review of the draft Technology Acquisition
Management (TAM) Process Guide – Phases 3 and 4, Production, Deployment, and
Maintenance dated June 2006 (Project Number 06XG035DA000). The U.S. Postal
Service Office of Inspector General (OIG) Engineering and Supply Management and
Facility directorates performed the review in accordance with the Value Proposition
Agreement, dated October 6, 2005.

In September 2004, the OIG recommended Postal Service Engineering develop written
policies and procedures to better manage acquisitions in a report titled Technology
Acquisition Management (Report Number DA-AR-04-003, dated September 24, 2004).
In response, Engineering initiated efforts to further develop, standardize, and document
its internal procedures to address program management activities, such as conditional
acceptance criteria. Engineering sought the OIG’s assistance in the development
efforts, so together we formed a Value Proposition Agreement to develop the TAM
Process Guide. The objective of the agreement is to promote acquisition practices that
maximize benefits for the U.S. Postal Service.

On March 28, 2006, we issued the Technology Acquisition Management Manual –
Phase 1, Proof of Concept (Product Number DA-WP-06-001), which summarized our
review of the Proof of Concept phase. This was followed on June 29, 2006, by the
Technology Acquisition Management Process Guide – Phase 2, Development (Product
Number CA-WP-06-001), which summarized our review of the Development phase.

This is our third and final review of the draft TAM Process Guide. During this review, we
determined whether the draft guide for Phases 3 and 4, Production, Deployment, and
Maintenance, corresponded to acquisition management procedures prescribed by the
National Aeronautics and Space Administration (NASA), the Department of Defense
(DOD), and the Carnegie-Mellon Institute. In addition, we determined whether the draft
guide addressed internal controls prescribed by the Government Accountability Office
(GAO) and prior OIG report recommendations. Finally, we met regularly with TAM
executives and the process development team to provide feedback on draft versions of
the guide.
Technology Acquisition Management Process Guide -                                                DA-WP-006-002
 Phase 3 and 4, Production, Deployment, and Maintenance




With some exceptions, the procedures documented in the draft guide were consistent
with acquisition management procedures NASA, DOD, and the Carnegie-Mellon
Institute prescribed, and addressed internal controls and prior OIG recommendations.

Specific areas for improvement include:

       •   Establishing an independent reporting structure for Test and Evaluation and
           Quality Assurance groups.

       •   Establishing detailed guidelines for conditionally accepting programs that do not
           meet performance expectations.

       •   Defining the roles and responsibilities of Contracting Officers’ Representatives
           (CORs) and linking COR training requirements to the corresponding Postal
           Service Management Instruction.1

We outline these areas in the appendix and discuss them in more detail below.

Independent Reporting Structure for Test, Evaluation, and Quality Assurance

To help ensure objective evaluations of programs, DOD and NASA mandate that their
Test, Evaluation, and Quality (TE&Q) groups remain organizationally independent of
acquisition and program management. While the draft guide clearly describes the roles
and functions of the TE&Q groups, it does not address reporting structure. The OIG
previously addressed the issue of an independent reporting structure in a March 2002
audit2 focused on the activities of the Postal Service’s TE&Q groups. The audit
revealed these groups did not provide an independent assessment of Postal Service
programs. Unlike other testing and quality groups from benchmarked organizations,
TE&Q did not have any authority over program approval and assessment.

Management has since taken steps to improve the independence of the TE&Q function
by developing policies and procedures3 that include test reporting to both the TAM
Manager and the Vice President, Engineering. However, organizationally, the TE&Q
groups still report to TAM. As a result, TAM can still influence the TE&Q groups’ ability
to objectively assess programs. By enhancing the reporting structure and updating the
TAM guide accordingly, management can minimize the perceived conflict of interest tied
to testing equipment performance and program deployments. As such, we suggested
separating TE&Q from program activities in our benchmarking presentation to postal
management.



1
    Postal Service Management Instruction PM-610-2001-1 Contracting Officer’s Representative Program.
2
    Postal Service Test, Evaluation, and Quality (Report Number DA-AR-02-004, dated March 27, 2002).
3
    Test, Evaluation, and Quality Policies and Procedures Manual, July 2002.



                                                         2
Technology Acquisition Management Process Guide -                             DA-WP-006-002
 Phase 3 and 4, Production, Deployment, and Maintenance


Conditional Acceptance Guidance

The draft TAM guide requires the use of conditional acceptance for minor performance
issues; however, it gives no further guidance. Prior OIG audits revealed that Postal
Service officials conditionally accepted projects when equipment did not fully pass the
First Article Test, a key control for ensuring performance before systems are placed into
production. In addition, there were inconsistencies in documenting and justifying
management decisions in conditionally accepting projects. Without clear standards for
conditional acceptance, the Postal Service risks deploying systems prematurely and,
consequently, increases the risk of procuring systems that do not achieve the planned
financial and functional benefits. Thus, we also suggested developing standard
procedures for conditionally accepted projects in our benchmarking presentation to
postal management. These procedures should include but not be limited to:

    •   Documenting and justifying decisions.

    •   Coordinating with Supply Management on the contractual impact of the
        conditional acceptance. For example, our benchmarks noted that while the DOD
        also uses conditional acceptance, they apply it using a policy of not paying more
        than the value of delivered services or goods.

    •   Approving exceptions to standard procedures at the appropriate level within the
        organization.


Contracting Officer Roles, Responsibilities, and Training

The draft guide states that Postal Service program managers will assume the roles and
responsibilities of a COR. The COR plays a vital role in assisting the contracting officer
in monitoring contract performance to ensure the Postal Service receives its value and
maintains a standard of quality that supports the Postal Service. However, the draft
manual does not discuss what those roles and responsibilities generally entail or the
importance of taking the required COR training and complying with the contracting
officer’s letter of designation. This section of the TAM should also be linked to the
Postal Service Management Instruction PM-610-2001-1, Contracting Officer’s
Representative Program. In our benchmarking presentation to postal management, we
suggested that the TAM guide provide additional information identifying the training
needs, roles, and the certification process for CORs.

Postal Service Engineering continues to make marked progress in developing the TAM
Process Guide. As it completes this endeavor, we suggest issuing a Management
Instruction or some other form of communication from the Vice President, Engineering,
to establish authority before the TAM Process Guide is distributed and implemented.




                                                  3
Technology Acquisition Management Process Guide -                           DA-WP-006-002
 Phase 3 and 4, Production, Deployment, and Maintenance


Engineering was responsive to our comments and suggestions during the course of this
effort. Management reviewed a discussion draft of this report and provided feedback,
which we have taken into account; therefore, no response is necessary. We appreciate
the cooperation and courtesies provided by your staff. If you have any questions or
need additional information, please contact Miguel Castillo, Director, Engineering, or me
at (703) 248-2300.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI




Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Aron M. Sanchez
    Donald E. Crone
    J. Otis Smith
    John F. Keegan
    Mark Guilfoil
    Steven R. Phelps




                                                  4
Technology Acquisition Management Process Guide -                                                DA-WP-006-002
 Phase 3 and 4, Production, Deployment, and Maintenance




                            APPENDIX
       ANALYSIS FOR PHASES 3 AND 4, TECHNOLOGY ACQUISITION
                 MANAGEMENT (TAM) PROCESS GUIDE

                                                                                         Included in Draft TAM   TAM Draft
           Benchmarking With Department of                                                   Process Guide        Guide
 I.                   Defense (DOD)                        Document Reference               Phases 3 and 4       Reference
 a.    The independent planning of dedicated         DOD Instruction 5000.2; 3.7.1.1.;            No              4.7; 4.8
       Initial Operational Test and Evaluation as    E5.7.4 and 6
       required by law shall be the responsibility
       of the Operational Test Agency.




 b.    An independent Defense Contract               DOD Directive 5105.64.                       No               None
       Management Agency (DCMA)
       organization carries out Quality Assurance
       responsibilities.




 c.    Define Contracting Officer Representative     COR Handbook, U.S. Army                      No               None
       (COR) roles, responsibilities, and training   Research, Development, and
       requirements.                                 Engineering Command Acquisition
                                                     Center.




             Benchmarking With National                                                  Included in Draft TAM   TAM Draft
        Aeronautics and Space Administration                                                 Process Guide        Manual
 II.                   (NASA)                             Document Reference                Phases 3 and 4       Reference
 a.    NASA Quality Assurance Program policy         NASA Policy Directive (NPD)                  No               None
       mandates the establishment of an              8730.5 expires on 10/27/2010, 1a.
       independent quality assurance program.




                                                                  5
Technology Acquisition Management Process Guide -                                                   DA-WP-006-002
 Phase 3 and 4, Production, Deployment, and Maintenance




                                                       APPENDIX
                                                      (CONTINUED)
                                                                                            Included in Draft TAM        TAM Draft
                 INTERNAL CONTROL                                                               Process Guide             Guide
 III.             CONSIDERATIONS                           Document Reference                  Phases 3 and 4            Reference
 a.     Management needs to divide key duties        General Accounting Office                       No                    None
        and responsibilities among different         Standards for Internal Control in
        employees to reduce risk of error and        the Federal Government, Page 14.
        fraud.

 b.     Only specified individuals should            General Accounting Office                       No                4.10. See D.1.23
        authorize and execute transactions and       Standards for Internal Control in
        events.                                      the Federal Government, Page 14.

                                                                                            Included in Draft TAM        TAM Draft
           LESSONS LEARNED FROM PAST                                                            Process Guide             Manual
 IV.                AUDIT REPORTS                           Document Reference                 Phases 3 and 4            Reference
 a.     Reassess the value of conditionally          Audit Report No. DA-AR-O1-006;                  No                    4.8.5
        accepting programs that do not meet          Title: Singulate, Scan, Induction
        performance expectations and establish       Unit; Date: 9/27/2001;
        guidelines for approving and documenting     Recommendation No. 7.
        these decisions.

 b.     Develop and formally adopt written           Audit Report No. DA-AR-04-003;                  No                     4.8.5
        policies and procedures in accordance        Title: Technical Acquisition
        with internal controls and best business     Management; Date: 9/24/2004;
        practices to manage acquisitions, to         Recommendation No. 1.
        include developing standard procedures
        for conditionally accepted projects.

 c.     Modify the organizational reporting          Audit Report No. DA-AR-O2-OO4;                  No                     None
        structure of TE&Q to have a direct report    Title: Postal Service Test,
        to his office as well as the Manager, TAM.   Evaluation and Quality; Date:
                                                     03/27/2002; Recommendation
                                                     No. 2.


 d.     Ensure contracting officers issue             Audit Report No. CA-AR-99-003;      No. This recommendation is         4.9
        appointment letters, which clearly define      Title: Responsibilities of CORs;       applicable to Supply
        CORs’ duties and responsibilities.                     Date: 9-30-1999;           Management. However, the
                                                          Recommendation No. 11.          TAM should refer to Supply
                                                                                           Management requirements
                                                                                           regarding COR duties and
                                                                                                responsibilities.

 e.     Amend the Defense Federal Acquisition        GAO/NSIAD-98-20; Title:                         No                     4.8.5
        Regulation Supplement to provide             Guidance Is Needed On Payments
        departmental guidance on the amounts to      For Conditionally Accepted Items.
        be withheld in cases of conditional
        acceptance of the services.




                                                                 6
